                        Audit of the Asset Seizure and
                         Forfeiture Program Contract

                                 September 2004

                       Reference Number: 2004-10-174




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  September 21, 2004


      MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Audit of the Asset Seizure and Forfeiture
                                    Program Contract (Audit # 200410009)


      This report presents the results of our review of the Asset Seizure and Forfeiture
      Contract. The overall objective of this review was to determine whether the contractor
      billed the Internal Revenue Service (IRS) accurately and according to the contract’s
      terms and conditions.
      Contract expenditures represent a significant outlay of IRS funds. The Treasury
      Inspector General for Tax Administration has made a commitment to perform audits of
      these expenditures. As a result, we initiated this audit to review the contractor’s
      invoices and determine whether the IRS was billed accurately and according to the
      contract’s terms and conditions.
      In summary, the contractor’s documentation was not adequate to support all of the
      costs invoiced to the IRS. Specifically, we identified $99,613.40 of the $4.5 million in
      direct invoiced costs included in our sample for which either the contractor was unable
      to provide any supporting documentation, or the documentation was not adequate to
      support the costs. We did not identify any unallowable expenses.
      We recommended the Director, Procurement, seek recovery of the unsupported costs
      of $99,613.40 unless the contractor provides acceptable support for those costs.1
      Management’s Response: IRS management agreed with the recommendation
      presented in our report and initiated corrective action. Specifically, the contracting
      officer (CO) held further discussions with the contractor and received additional


      1
        The draft report recommended recovery of $99,613.41. The difference of $.01 is attributable to a recalculation of
      labor hours invoiced.
                                           2

documentation to support $88,767.42 of the questioned labor and travel expenses. The
CO will initiate action to recover the remaining unsupported amount of $10,845.99.
Office of Audit Comment: We reviewed the additional documentation provided by the
contractor to the IRS. We were able to verify $85,781.30 of our original $99,613.40 of
questioned costs. However, we do not believe the contractor provided sufficient
additional documentation to support some of the travel expenses. The CO should
consider this when seeking recovery of all unsupported costs, totaling $13,832.10.
Please contact me at (202) 622-6510 if you have any questions or Daniel R. Devlin,
Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.
                     Audit of the Asset Seizure and Forfeiture Program Contract



                                                  Table of Contents


Background ................................................................................................. Page 1
Documentation Was Not Adequate to Support All of the
Invoiced Costs............................................................................................. Page 1
         Recommendation 1: .........................................................................Page 3

Appendix I – Detailed Objective, Scope, and Methodology......................... Page 4
Appendix II – Major Contributors to This Report ......................................... Page 5
Appendix III – Report Distribution List ......................................................... Page 6
Appendix IV – Outcome Measures.............................................................. Page 7
Appendix V – Management’s Response to the Draft Report ....................... Page 8
                Audit of the Asset Seizure and Forfeiture Program Contract

                                   In September 1999, the Internal Revenue Service (IRS)
Background
                                   awarded a time and materials contract1 for the Criminal
                                   Investigation (CI) function’s asset seizure and forfeiture
                                   program.2 The contractor provides support services to the
                                   asset forfeiture program, including personnel, supervision,
                                   and other related services, and incidental items necessary for
                                   the management of seized and forfeited assets.
                                   The contract was awarded for a 1-year base period, with
                                   4 option years. According to the IRS Request Tracking
                                   System, as of December 2003, the IRS had approved for
                                   payment approximately $10 million.
                                   Because contract expenditures represent a significant outlay
                                   of IRS funds, the Treasury Inspector General for Tax
                                   Administration (TIGTA) has made a commitment to
                                   perform audits of these expenditures. We initiated this audit
                                   to review the contractor’s invoices and determine whether
                                   the IRS was billed accurately and according to the contract’s
                                   terms and conditions.
                                   The review was performed in the Procurement directorate
                                   within the Office of Agency-Wide Shared Services in Oxon
                                   Hill, Maryland, and in the CI function in Washington, D.C.,
                                   during the period November 2003 through June 2004. In
                                   addition, we interviewed accounting personnel and reviewed
                                   records in the contractor’s office located in Fairfax,
                                   Virginia.
                                   The audit was conducted in accordance with Government
                                   Auditing Standards. Detailed information on our audit
                                   objective, scope, and methodology is presented in
                                   Appendix I. Major contributors to the report are listed in
                                   Appendix II.
                                   The contractor’s documentation was not adequate to support
Documentation Was Not
                                   all of the costs invoiced to the IRS. Using a judgmental
Adequate to Support All of the
                                   sample of 21 invoices, totaling approximately $4.5 million,
Invoiced Costs
                                   we examined the contractor’s supporting documentation to

                                   1
                                     A time and materials contract provides for the acquisition of supplies
                                   or services on the basis of direct labor hours at specified fixed hourly
                                   rates and materials at cost.
                                   2
                                     The CI function uses asset seizure and forfeiture authority as an
                                   investigative tool and/or to disrupt and dismantle criminal enterprises by
                                   depriving criminals of property used in, or acquired through, illegal
                                   activities.
                                                                                                     Page 1
Audit of the Asset Seizure and Forfeiture Program Contract

                   verify charges for employee labor hours, as well as travel
                   expenses. We identified $99,613.40 (2.2 percent) of the
                   $4.5 million in direct invoiced costs included in our sample
                   for which either the contractor was unable to provide any
                   supporting documentation or the documentation was not
                   adequate to support the cost. We did not identify any
                   unallowable expenses.
                   Table 1 summarizes the questioned costs identified during
                   our review.
                                     Table 1: Schedule of Questioned Costs
                                     Questioned Activity                     Questioned
                                                                               Cost
                   No documentation to support labor hours invoiced              $83,753.89
                   No documentation to support travel expense                    $15,646.86
                   Overcharge of travel expense due to miscalculation              $212.65
                   Total                                                         $99,613.40
                   Source: TIGTA analysis of 21 invoices submitted to the IRS.

                   The Federal Acquisition Regulation (FAR)3 stipulates that a
                   contractor is responsible for accounting for costs
                   appropriately and for maintaining records, including
                   supporting documentation, adequate to demonstrate that
                   costs claimed have been incurred. The FAR also provides
                   that costs shall be allowed to the extent they are reasonable,
                   allocable, and allowable under the FAR.
                   The IRS has a process in place to verify the charges
                   included on the invoices. While the contracting officer
                   (CO) is the ultimate authority on administering the contract,
                   the contracting officer’s technical representative (COTR) is
                   the designated official for verifying the accuracy of the
                   labor and travel expenses reported on the contractor’s
                   invoices. The COTR relies on the CI function’s asset
                   forfeiture coordinators (AFC) to verify the contractor’s
                   labor hours. The AFCs are responsible for reviewing
                   contractor employee timecards to ensure labor hours are
                   being reported accurately. Additionally, an assistant COTR
                   is responsible for evaluating travel expenses. This consists
                   of a spot check for accuracy and proper authorization.


                   3
                       48 C.F.R. pt. 1-53 (2002).
                                                                                   Page 2
Audit of the Asset Seizure and Forfeiture Program Contract

                   However, the assistant COTR does not routinely review
                   receipts for the travel vouchers.4
                   Because we were unable to verify all the costs included on
                   the invoices, there is no assurance the contractor billed the
                   IRS accurately. Although our review identified only
                   2.2 percent in unsupported costs, it would be good practice
                   for the IRS to randomly select charges at irregular intervals
                   to verify to supporting documentation (e.g., time reports,
                   travel receipts) as part of its invoice review process for all
                   contracts.
                   Recommendation

                   1. The Director, Procurement, should seek recovery of the
                      $99,613.40 in unsupported costs unless the contractor
                      provides acceptable support for those costs.5
                   Management’s Response: The CO held further discussions
                   with the contractor and received additional documentation
                   to support $88,767.42 of the questioned labor and travel
                   expenses. The CO will initiate action to recover the
                   remaining unsupported amount of $10,845.99.
                   Office of Audit Comment: We reviewed the additional
                   documentation provided by the contractor to the IRS. We
                   were able to verify $85,781.30 of our original $99,613.40 of
                   questioned costs. However, we do not believe the
                   contractor provided sufficient additional documentation to
                   support $2,986.11 in travel expenses.6 The CO should
                   consider this additional amount when seeking recovery of
                   all unsupported costs, totaling $13,832.10.




                   4
                     Subsequent to the end of our fieldwork, Procurement management
                   advised that all receipts for travel vouchers are reviewed prior to
                   processing invoices for payment. During the time of our review, we
                   were advised that only spot checks were performed. We did not validate
                   if these reviews were being performed.
                   5
                     The draft report recommended recovery of $99,613.41. The difference
                   of $.01 is attributable to a recalculation of the labor hours invoiced.
                   6
                     The contractor provided documentation that the contractor believed
                   supported $5,013.52 in travel costs; however, we concur with only
                   $2,027.41.
                                                                                  Page 3
                      Audit of the Asset Seizure and Forfeiture Program Contract

                                                                                          Appendix I


                              Detailed Objective, Scope, and Methodology

The overall objective for this review was to determine whether the contractor billed the Internal
Revenue Service (IRS) accurately and according to the contract’s terms and conditions. We
accomplished this objective by determining whether contractor billings were adequately
supported and all costs were allowable. Specifically, we:
I.         Determined whether labor hours, labor categories and rates, and travel costs billed were
           allowable, accurate and supported by appropriate documentation, and consistent with
           contract terms and conditions.
           A. Reviewed the IRS contract files to identify all applicable contract terms and
              conditions and determined the minimum contract qualifications required for each
              labor category and corresponding labor rates.
           B. Interviewed IRS personnel involved in the administration of the contract and payment
              of the invoices to determine whether concerns exist regarding the contractor, its
              billing practices, or any specific invoices.
           C. Prepared a sampling plan and judgmentally selected a sample of invoices. A
              judgmental sample was used because we did not plan to project the results to the
              universe. We analyzed all 33 of the contractor’s invoices submitted from
              January 2001 through August 2003 to select our sample. We selected a sample of
              21 invoices to verify all direct costs,1 including labor hours and travel expenses
              (e.g., airfare, hotel, mileage). Our sample covered approximately $4.5 million
              (almost 65 percent) of the nearly $6.9 million in total invoiced expenses. In addition,
              the sample included nearly $174,000 (nearly 55 percent) of the approximately
              $317,000 in invoiced travel expenses.
                1. Traced employee hours billed to supporting timesheets and payroll records to
                   verify accuracy.
                2. Compared the labor rates billed to those established in the contract to verify
                   consistency with the contract terms.
                3. Determined whether all charges were allowable in accordance with the contract
                   terms and Federal Government regulations.
II.        Identified control deficiencies that allowed the payment of invoices containing
           inaccurate, unsupported, and/or unallowable labor and travel costs to occur. We did not
           review the contractor’s entire systems of internal controls.



1
    Direct costs are costs that can be identified specifically with a contract.
                                                                                                Page 4
              Audit of the Asset Seizure and Forfeiture Program Contract

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Debra Gregory, Audit Manager
Gary Pressley, Lead Auditor
Robert Beel, Senior Auditor
Chinita Coates, Auditor
Melvin Lindsey, Auditor
Niurka Thomas, Auditor




                                                                                      Page 5
             Audit of the Asset Seizure and Forfeiture Program Contract

                                                                          Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation SE:CI
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A:F
       Chief, Criminal Investigation SE:CI:S:PS
       Director, Procurement OS:A:P




                                                                               Page 6
                  Audit of the Asset Seizure and Forfeiture Program Contract

                                                                                                     Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Cost Savings, Questioned Costs (Unsupported) – Potential, $13,832.10 (see page 1).
Methodology Used to Measure the Reported Benefit:
To determine the questioned costs, we reviewed a judgmental sample of 21 invoices, including
the corresponding supporting documentation. We selected our sample from a total population of
33 invoices the contractor submitted to the Internal Revenue Service (IRS) for services rendered
during our review period (January 2001 through August 2003). We identified $99,613.40 in
costs for which the contractor was either unable to provide any supporting documentation or the
documentation was not adequate to support the cost.1
The IRS’ response to the draft report provided that the contracting officer (CO) received
additional documentation from the contractor and determined that $88,767.42 of the questioned
costs were supported. Additionally, the IRS stated that the CO will initiate action to recover the
remaining unsupported amount of $10,845.99.
We reviewed this additional documentation and were able to verify $85,781.30 of our original
$99,613.40 of questioned costs. However, we do not believe the contractor provided sufficient
additional documentation to support $2,986.11 in travel expenses. The contractor provided
documentation that the contractor believed supported $5,013.52 in travel expenses, but we
concur with only $2,027.41. The CO should consider this when seeking recovery of all
unsupported costs, totaling $13,832.10.




1
 The draft report identified $99,613.41 in questioned costs. The difference of $.01 is attributable to a recalculation
of the labor hours invoiced.
                                                                                                              Page 7
Audit of the Asset Seizure and Forfeiture Program Contract

                                                             Appendix V
      Management’s Response to the Draft Report




                                                                 Page 8
Audit of the Asset Seizure and Forfeiture Program Contract




                                                             Page 9
